LE GAL PRINTERS,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

April 20, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-1361:

REGINA B. HEISLER, INDIVIDUALLY AND AS THE EXECUTRIX OF THE
SUCCESSION OF FREDERICK P. HEISLER V. GIROD LOANCO, LLC

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Second
Supplemental Brief to Petition for a Writ of Certiorari referenced above contains 1,252
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,

Jack Suber, Esq.
Principal

USA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commission exp. Ottober12,2022

Sworn and subscribed before me this 20th day of April 2021.

